September 29, 2003
Audit Report No. 03-045


New Financial Environment Scope
Management Controls
                                       TABLE OF CONTENTS

BACKGROUND.............................................................................................................................3
    NFE Contract ......................................................................................................................3
    NFE Functional and Technical Requirements ..................................................................3
    NFE Management Control Framework ............................................................................4
    Scope and Time Management Control Guidance .............................................................5


RESULTS OF AUDIT....................................................................................................................5


FINDINGS AND RECOMMENDATIONS..................................................................................6


FINDING A: SCOPE MANAGEMENT DELIVERABLES ......................................................6
     Requirements Traceability Matrix ....................................................................................6
     General Design....................................................................................................................7


FINDING B: PROJECT OVERSIGHT .......................................................................................7
     Implementation of Project Control Framework ...............................................................7
     Scope Management Plan ....................................................................................................8
     NFE Project Self-Assessment .............................................................................................9


FINDING C: TIME MANAGEMENT.......................................................................................10
     Time Management Practices............................................................................................10
     Status Reports ...................................................................................................................10
     Decision-Making ...............................................................................................................11


CONCLUSION AND RECOMMENDATIONS ........................................................................11
    Recommendations .............................................................................................................12


CORPORATION COMMENTS AND OIG EVALUATION....................................................12


APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY............................................15


APPENDIX II: ANALYSIS OF KEY CONTRACT DELIVERABLE DATES .....................18


APPENDIX III: CORPORATION COMMENTS ....................................................................19


APPENDIX IV: MANAGEMENT RESPONSES TO RECOMMENDATIONS....................23




                                                               1
Federal Deposit Insurance Corporation                                                                           Office of Audits
Washington, D.C. 20434                                                                             Office of Inspector General



   DATE:                                September 29, 2003

   TO:                                  Steven O. App, Chief Financial Officer



   FROM:                                Russell A. Rau
                                        Assistant Inspector General for Audits

   SUBJECT:                             New Financial Environment Scope Management Controls
                                        (Audit Report No. 03-045)


   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
   completed an audit of the New Financial Environment (NFE) scope management controls. This
   audit is the second in a series of reviews that we intend to conduct at critical milestones or
   decision points during the development and implementation of the NFE. The first audit was to
   determine whether FDIC had established a control framework for the NFE project.1 Prior to
   these audits, the FDIC OIG performed two limited-scope evaluations of the NFE project at the
   request of FDIC management.2 The objective of this audit was to determine whether the FDIC
   had implemented adequate controls for ensuring that the scope of the NFE project was
   effectively managed and any cost or schedule adjustments resulting from project scope changes
   were properly evaluated and controlled. A detailed discussion of our audit objective, scope, and
   methodology is in Appendix I of this report.

   Readers of this report are also encouraged to review the Corporation’s comments in Appendix III
   to gain a better understanding of the significant scope of the NFE project. In addition, the
   comments address in detail management’s efforts to work through and resolve project challenges
   that have arisen.

   The purpose of this report is to provide observations and recommendations intended to assist
   management’s effort to ensure the success of the NFE project. Providing this information at this
   point in the project's life cycle will enable the FDIC to take timely corrective actions.



   1
       Audit of the New Financial Environment Project Control Framework, dated March 5, 2003 (Audit Report
       No. 03-016).
   2
       The first of these reports, entitled The New Financial Environment Project, dated December 7, 2001 (Evaluation
       Report No. 01-004), assessed the reasonableness of the NFE cost-benefit analysis and the financial systems
       architecture. The second report, entitled Preaward Review of New Financial Environment Project, dated
       October 7, 2002 (Audit Report 03-002), provided observations on selected procedures and documents related to the
       NFE Request for Proposal.




                                                          2
BACKGROUND

The NFE project is a major corporate initiative to enhance the FDIC's ability to meet current and
future financial management and information needs. The project involves implementing a new
commercial-off-the-shelf (COTS) software package to replace the FDIC's current financial
systems, which are based on the Walker Interactive Systems, Inc. Tamris software products. The
project also involves extensive re-engineering of the FDIC’s business practices. The FDIC
considers the re-engineering of its business practices to be a critical factor in achieving the
expected benefits of the NFE in terms of streamlining business processes and avoiding the
high-maintenance costs associated with software customization.

NFE Contract

On December 10, 2001, the FDIC's Board of Directors approved contract expenditure authority
for the NFE project totaling approximately $28.8 million. 3 The FDIC executed a multi-year
contract with Accenture, LLP (Accenture) 4 in October 2002 to replace its financial systems with
PeopleSoft ® Financials. The contract contained a 4-year base period not to exceed
approximately $26 million. The FDIC planned to implement the core financial system on July 1,
2004, that is, accounts payable, accounts receivable, general ledger, budget, procurement,
treasury management, reporting, and portions of the cost management modules. The enhanced
cost management functionality is scheduled for implementation in 2005. The NFE contract is a
fixed-price contract with interim payments based on a schedule of 189 deliverables that define
Accenture’s activities and schedule. Of the 189 deliverables, 62 were for key design,
development, and implementation activities, and the remaining 127 were for status reports and
operations. By August 31, 2003, 32 of the 62 key deliverables were to have been completed and
accepted by FDIC.

NFE Functional and Technical Requirements

The FDIC developed 753 functional and technical requirements for the NFE core financial
system and included them in the request for proposal and as part of the contract’s statement of
work. As part of the core financial system’s general design phase, FDIC and Accenture
personnel discussed the functional and technical requirements in Joint Application Development
(JAD) 5 and Conference Room Pilot (CRP) 6 sessions. Additionally, NFE project teams were to
analyze NFE requirements and develop a baseline requirements list that included new
requirements identified during the general design phase. Near the end of the general design
phase and not later than March 31, 2003, Accenture was to perform an overall schedule and cost

3
    When the Board case was approved, the FDIC estimated the total life-cycle cost of the NFE, including FDIC staff
    time, to be approximately $62.5 million over 8 years.
4
    Accenture is a global management consulting and technology services company with more than 80,000 people in
    47 countries .
5
    JAD sessions were conducted using a focus group format with representatives from each FDIC functional area.
    During these sessions, FDIC business processes were reviewed and verified in order to provide a baseline for
    planning activities.
6
    CRP sessions were conducted after the installation and demonstration of the basic PeopleSoft® Financials
    application. The purpose of these sessions was to demonstrate that the packaged software solution supported
    FDIC’s core business processes and to identify additional requirements and necessary modifications. Sessions
    were conducted in a small conference-room setting, with FDIC subject matter experts validating business
    processing effects .




                                                        3
re-estimate for implementing the NFE baseline requirements that included any new functional
and technical requirements approved by FDIC NFE management.

NFE Management Control Framework

The NFE management control framework includes oversight by a senior management advisory
group, the NFE Principals group, and an NFE Steering Committee. The purpose of the NFE
Principals group and NFE Steering Committee is to ensure the successful completion of the
project. The NFE Principals group is composed of the Chief Financial Officer (CFO) and the
directors of the divisions most impacted by NFE. To keep senior FDIC management informed of
the project’s progress, the NFE Principal’s group receives a monthly briefing from the NFE
project team. Additionally, the Director of the Division of Finance (DOF), the project sponsor
and a member of the NFE Principals group, is responsible for keeping the FDIC Board of
Directors informed of the NFE project’s status.

The NFE Steering Committee provides direct oversight of the NFE project. The committee is
co-chaired by two DOF Deputy Directors and includes FDIC executives from the Division of
Information Resources Management (DIRM), Division of Administration (DOA), Division of
Resolutions and Receiverships, Division of Supervision and Consumer Protection and the Office
of Internal Control Management (OICM). The NFE Steering Committee's purpose is to oversee
the planning, development, and successful implementation of the core financial system. The
Committee’s functions include the following:

       •    ensuring timeframes for the project are met;
       •    reviewing and monitoring progress against the project plan;
       •    serving as the communication link with key FDIC senior managers;
       •    approving major contract modifications;
       •    addressing concerns expressed by FDIC senior management, the project team, and
            external oversight groups; and
       •    acting to remove obstacles and issues that may impact successful project delivery.

The Steering Committee meets every 2 weeks to discuss issues and receive progress reports from
FDIC and Accenture NFE project managers.

The Director OICM, who is the project’s risk manager, ensures that risks are closely monitored
and controlled. The risk manager reports monthly to the CFO; Director, DOF; and the NFE
Steering Committee on indications that a significant 7 risk event may occur. The Director OICM
also ensures that the project team develops risk mitigation and contingency plans.

In addition to the executive oversight described above, the NFE team includes three FDIC
project managers to run the day-to-day technical, business, systems, and other aspects of the
project. The project managers’ duties are to: assign team members, provide contract oversight,
identify operational obstacles, and ensure the project is completed on time and within budget.
The project managers formed additional teams of FDIC employees and subject matter experts to
work with Accenture to ensure the delivered core financial system meets FDIC needs, familiarize


7
    A significant risk will have a critical or catastrophic effect on the project if it occurs.




                                                              4
FDIC employees with changes caused by NFE, and help keep the project on time and within
budget.

Scope and Time Management Control Guidance

Effective scope and time management controls are vital to the success of any large and complex
project such as the NFE. These controls include controls that reflect the broader environment in
which the project operates, such as ensuring the project is effectively coordinated with other
related organizational projects. The Project Management Institute (PMI) 8 has conducted
extensive research and analysis in the field of project management and published a standards
guide in 2000, entitled A Guide to the Project Management Body of Knowledge (PMBOK ®
Guide). The PMBOK® Guide identifies nine distinct knowledge areas associated with successful
project management. The following two knowledge areas focus on the work to be done and the
time needed to do the work.

      •   Scope Management: The processes that ensure a project includes all of the work
          required, and only the work required, to complete the project successfully. Scope
          management consists of initiation and scope planning, definition, verification, and change
          control.
      •   Time Management : The processes that ensure timely completion of a project. Time
          management consists of activity definition, sequencing, and duration estimating as well
          as schedule development and schedule control.

Although the FDIC is not required to comply with the PMBOK® Guide, we used it as criteria for
scope and time management because the guide contains generally accepted industry practices
related to successful project management. In response to our audit report on the NFE control
framework, the FDIC agreed to implement recommendations for integration, communication,
and risk management. The report recommendations were based on guidelines in the PMBOK®
Guide. Additional information about the PMBOK® Guide is included in our audit objective,
scope, and methodology in Appendix I of this report.


RESULTS OF AUDIT

Key scope management deliverables for the NFE project are significantly behind schedule (see
Finding A: Scope Management Deliverables). Improvements in project oversight could have
minimized the impact of issues affecting the project deliverable schedule (see Finding B:
Project Oversight). In addition, FDIC manageme nt did not adopt adequate time management
practices to maximize project progress (see Finding C: Time Management). As a result, the
project is less likely to be deployed on schedule, which could increase FDIC’s contracting costs
and defer the benefits anticipated from an integrated financial system.




8
    PMI was established in 1969 as a not-for-profit project management professional association. PMI has over 95,000
    members in 125 countries worldwide.




                                                        5
                              FINDINGS AND RECOMMENDATIONS


FINDING A: SCOPE MANAGEMENT DELIVERABLES

Baseline requirements and the general design have not been finalized for the NFE project. Since
October 2002, the beginning of the NFE implementation contract, through August 31, 2003,
25 (78 percent) of the 32 design and implementation deliverables were delayed from the original
delivery schedule (see Appendix II). Of particular concern, two deliverables that provide the
foundation for the remainder of the project, the Requirements Traceability Matrix (RTM) 9 and
the General Design Document, 10 were 4½ months behind the original schedule as of August 31,
2003. During this time, the NFE project team was working with Accenture to minimize the
number of new requirements and potential customizations resulting from initial business process
review and NFE pilot sessions with representatives of FDIC program offices. However, as
discussed in Findings B and C, improvements in project oversight and time management could
have been helpful in minimizing the delays that have occurred. Further delays could result in
additional costs for implementing the core financial system, continuing the operation of the
existing financial management system, and deferring the efficiencies anticipated by a completed
NFE.

Requirements Traceability Matrix

The project team has not completed the RTM for the core financial system. After JAD and CRP
sessions and other project efforts by Accenture and FDIC, Accenture proposed about 160 new
requirements in addition to the 753 requirements defined in the statement of work. The NFE
team worked with Accenture to tie the proposed requirements to existing requirements or to
eliminate the majority of them. This work, while time consuming, reduced the number of new
requirements from 160 to about 30. In addition, the team was able to offset the new
requirements by revisiting and eliminating some of the original 753 requirements.

Analyzing and reaching agreement with Accenture project management on the 160 requirements
took longer than expected. Specifically, the RTM was originally scheduled to be completed by
April 15, 2003. However, the project team reported that it had not made determinations on about
30 of the 160 additional requirements as of June 30, 2003. As of August 31, 2003, 11 months
into the 21-month project, FDIC had not finalized its requirements in the form of an RTM for the
core financial system.



9
   The RTM will capture various information for each NFE requirement such as the functional area, whether the
   requirement will be included as part of the NFE baseline implementation, description of the requirement, etc.
   Once all the requirements have been reviewed and a final decision has been made on which requirements are in the
   NFE baseline, Accenture will produce a “Build RTM.” The “Build RTM” will list all the requirements to be
   included in the baseline NFE. The “Build RTM” will be generated at the end of the NFE General Design and will
   provide the scope boundaries for the NFE build phase (Detail Design, Programming, Testing, etc.).
10
    The General Design Document translates system requirements into specific system processes and elements,
   conceptualizing the high-level application structure to meet those requirements. The General Design Document
   also defines server databases and any other outside network connectivity that may impact the application structure
   and performance. When the General Design Document is finalized, the development team begins to create
   detailed designs for the system.




                                                       6
General Design

The General Design Document, a specific contract deliverable, is composed of a series of
documents defining how specific differences between the COTS application and FDIC business
needs will be met. It provides the foundation for developing detail system specifications and was
originally scheduled to be complete by April 15, 2003 but had not been completed as of
August 31, 2003. Because the General Design Document incorporates baseline requirements,
delays in defining these requirements have also delayed completion of the General Design
Document. As a result of dela ys in completing the General Design Document, other activities
dependent on general design were also slipping. For example, the final detail design will not be
completed until 4 weeks after completion of the general design.

It is also important to promptly complete the RTM and general design of the project because the
Accenture NFE implementation contract is a fixed-price contract. The FDIC Acquisition Policy
Manual states that under a fixed-price contract, a contractor is required to deliver the required
goods or perform the services at a specified fixed price. A set price is established for delivery of
a defined product or service. Payment is normally made upon delivery and acceptance of the
goods or services. Successful use of fixed-price contracts requires a clear definition of
requirements at the time of contract award and realistic estimates of work to be performed.
Further, DOA’s best practices for program divisions state that a fixed-price contract is
appropriate when the contracted services have reasonably definable functional and detailed
specifications. Delays in finalizing the RTM and General Design Document could result in
contract performance issues.


FINDING B: PROJECT OVERSIGHT

Sustained and effective oversight is crucial to the successful implementation of the NFE project.
The NFE Steering Committee and FDIC senior management did not fully utilize the NFE project
control framework that was established to achieve such oversight. Also, the scope management
document that was developed did not address the impact of systems and business processes
external to the core financial system. Recognizing that corrective actions may be needed to
address the project delays, the project team is conducting a self-assessment of its management
practices.

Implementation of Project Control Framework

The General Accounting Office Standards for Internal Control in the Federal Government state
that internal (management) control is a continuous built-in component of operations.
Management controls are an integral component of a project's management that provide
reasonable assurance of effective and efficient operations. The controls are a series of actions
and activities that occur throughout the project on an ongoing basis and as part of the project's
infrastructure to help managers run the project and achieve the project's goals. The critical
oversight controls established for the NFE project promote accountability on the project and
strengthen management of the project from a corporate perspective.

The NFE Steering Committee and FDIC senior management did not fully utilize the NFE project
control framework. Executive oversight meetings intended to oversee the planning,




                                                7
development, and successful implementation of the core financial system were cancelled when
problems were encountered. The NFE Steering Committee co-chairmen cancelled the Steering
Committee meetings on May 15 and May 29, 2003, because the project team was working to
address scope and schedule issues. When the May 29, 2003 meeting was cancelled, one of the
co-chairmen outlined significant project scope management issues and potential schedule delays
in an e-mail to committee members and explained that the project team wanted to develop more
comprehensive information about the issues before they were presented to the committee for
discussion. Although the issues were communicated to the Steering Committee, canceling the
meetings bypassed the project’s established process for Steering Committee oversight and
interdivisional communication. The NFE Steering Committee co-chairmen also cancelled the
June 2003 monthly NFE Principals meeting so that the issues could be discussed with the NFE
Steering Committee before the y were presented to the principals.

The cancellation of the key meetings limited senior management’s ability to make proactive,
informed decisions to ensure that significant issues affecting schedule, scope, and costs are
resolved in a timely manner. In short, the NFE Principals group and Steering Committee could
be more effective by evaluating the project’s progress and intervening promptly when delays or
obstacles become apparent.

Scope Management Plan

According to the PMBOK® Guide, scope management includes the processes required to ensure
that the project includes all the work required, and only the work required, to complete the
project successfully. Scope management primarily applies to defining and controlling what is or
is not included in the project and involves authorizing the project, defining the scope, obtaining
stakeholder acceptance of the scope, and controlling scope changes. The scope planning process
should result in a scope management plan describing the project scope and how scope changes
will be integrated into the project. The scope management plan should also include an
assessment of the stability of the project, i.e., how likely it is to change, how frequently, and by
how much. This plan should include a clear description of how scope changes will be identified
and classified. For example, the plan should describe how suggestions for including and
excluding system and business processes in the project are evaluated, prioritized, and eventually
approved or rejected. The PMBOK® Guide states this is particularly difficult—and therefore
absolutely essential—when the product (in this case the core financial system) characteristics are
still being defined. The PMBOK® Guide also states that management of both project and
product scope must be well integrated to ensure that project efforts will result in the delivery of
the specified product.

The NFE team developed a Scope Management Approach document that described the process
for defining the core financial system scope, i.e., completing the RTM. However, the Scope
Management Approach document did not contain the processes necessary to identify and
evaluate the project scope impact of FDIC systems and business operations external to the NFE
project. As of June 30, 2003, the NFE project team had not determined whether 20 of the 221
FDIC systems were impacted by the NFE project. In its June 27, 2003 weekly status report,
Accenture warned that the final scope of the system’s interface work could not be determined
until all affected systems were identified. By August 25, 2003, the NFE team had completed its
effort to identify systems impacted by the NFE.




                                               8
The NFE team also discovered that coordinating legacy systems changes, existing applications
upgrades, and current and emerging system development efforts required more attention than
originally antic ipated. Recognizing the need to invest additional efforts in managing the project
scope, the NFE project team created an NFE Program Management function to address the
systems changes that must occur and how they will be coordinated with the NFE core fina ncial
system implementation. Although establishing the Program Management function should
improve coordination on systems issues, the NFE Steering Committee should work with the
project team to develop a scope management plan. The scope management plan should clearly
define systems interfaces, changes to the interfaces, and a process to identify, authorize, and
integrate changes into the NFE project, as prescribed by the PMBOK® Guide.

NFE Project Self-Assessment

In response to the delays in completing the General Design Document, the Acting Director,
OICM reported in the May 2003 NFE-Risk Factor Evaluation that a significant risk, an
unrealistic project schedule,11 had occurred and that contingency plans were being implemented.
The contingency plans inc luded:

       •    assigning additional team members and mandatory overtime to the project to assist in the
            elimination of slipped tasks;
       •    obtaining senior management approval for an extension of the project implementation
            date, updating the project work plan, and determining whether to terminate the contract;
            and
       •    evaluating other alternatives, including ending the project.

As a result of project delays and the significant risk event, the NFE team is assessing project
scope and time management practices and expects to complete an analysis of significant issues
by December 1, 2003. These issues include:

        • impacts of additional time required to date and in the future relative to the project’s
          decision-making process for analyzing and modifying FDIC business processes and
          operations;
        • impacts on operational cycles (data conversion, budget, year-end closing);
        • timing for payroll/labor systems’ changes;
        • available personnel;
        • changes to the Accenture contract schedule, cost, and deliverables; and
        • impacts on other system changes.

The ongoing self-assessment may provide valuable insight into issues affecting the
implementation of NFE. Consistent with the project control framework, the results of the
assessment should be the impetus behind a senior management review of the project to establish
metrics for measuring progress and to establish project re-evaluation criteria if the measures are
not achieved.


11
     According to the NFE Project Risk Management Plan, completing planned milestones on time is a measure of
     success for every project. The most common cause for missed schedules is simply poor estimating, which may
     result from a lack of experience, a lack of estimating tools, or management pressure toward an unrealistic schedule.




                                                          9
FINDING C: TIME MANAGEMENT

The NFE project team needs to improve time management controls. Specifically, monthly status
reports lacked information needed for decision-making in addressing issues causing or that could
cause delays, and there was no time limit for decision- making at any level. Establishing a time
management plan would help the project team better control the project schedule.

Time Management Practices

The PMBOK® Guide describes project time management processes that include defining,
sequencing, and estimating the duration of activities, developing a schedule, and controlling
schedule change. Schedule control involves influencing the factors that create schedule changes
to ensure that changes are agreed upon, determining that the schedule has changed, and
managing the actual changes. Information needed for a schedule control process includes:

   •   an approved project schedule to provide the basis for measuring and reporting schedule
       performance,
   •   performance reports on which dates have been met and which have not,
   •   change requests, and
   •   a schedule management plan defining how changes to the schedule will be managed.

The PMBOK® Guide suggests the use of a change control system that defines the procedures for
changing the project schedule--including the paperwork, tracking systems, and approval levels
necessary for authorizing changes. Performance measurement and variance evaluation
techniques are also recommended to assess the magnitude of variations to determine whether
corrective action is necessary and which action is appropriate. An effective schedule control
process will provide updates to the schedule information used to manage the project. The
schedule control process provides the corrective action to bring expected future schedule
performance in line with the project plan. The FDIC Acquisition Policy Manual also emphasized
the importance of controlling the schedule, stating that the schedule is one of the concerns in the
administration of a fixed-price contract.

Status Reports

For time management of the project, the NFE Steering Committee receives a monthly critical
milestone report and a graphical schedule of high- level activities. However, the reports do not
provide adequate information to assist the NFE Steering Committee in making well- informed
decisions. The reports show progress on milestones and activities that are ongoing and whether
they are on schedule, less than 2 weeks behind schedule, or more than 2 weeks behind schedule.
Because the reports do not include information on actual variances between past activities and a
project baseline (i.e., the original contract deliverables schedule), the reports do not provide
sufficient information to evaluate performance. Also, the information in the status reports is
extracted from the project plan, a Microsoft ® Project database, that does not identify all
dependencies linking critical activities to be accomplished in order to deploy the core financial
system. As a result, the impact of delays on the project implementation date cannot be
determined from the monthly status reports—preventing the NFE Steering Committee from
anticipating, identifying, and addressing issues that contribute to delays. Empirical data on the



                                              10
schedule variances is essential for the NFE Steering Committee and the project team to
determine whether ongoing corrective actions such as fast tracking, 12 additional resources, and
design efficiencies will keep the project on schedule.

Decision-Making

Another issue affecting time management of the project is the slow decision-making process. To
meet its aggressive timeframe, the NFE project is structured to allow decision- making to begin at
the lowest levels of the NFE team and progress to the project managers, NFE Steering
Committee, and finally the Director, DOF, for disposition. However, there is no time limit for
decision-making at any of the levels. As a result, several unresolved issues have delayed the
project. For example, in its June 27, 2003, weekly status report, Accenture states that “For the
past [3] weeks there has been no activity towards the final categorization of the systems in a
preliminary category . . . It is important for these categories to be finalized as quickly as possible,
as the final scope of the interface work cannot be identified until all systems are in their final
category.”13 Another example is the inability of stakeholders to arrive at a consensus on
PeopleSoft ® chartfields (accounting elements necessary to appropriately process transactions). In
addition, NFE Steering Committee meeting minutes, dated June 26, 2003, state that if decision-
making continues to be slow, Accenture resources will not be used at full capacity or will be
taken off the project; either outcome is detrimental to the project. Accenture personnel have
been working on lower-priority activities to minimize the impact of delays while waiting for
decisions on higher-priority items such as completion of the RTM.

To control the project schedule, the NFE Steering Committee should work with the project team
to develop a time management plan that identifies where delays in an individual activity will
delay completion of the project and that provides a process for evaluating, approving, and
managing changes to the project schedule.


CONCLUSION AND RECOMMENDATIONS

Continual delays in key project deliverables will result in significant schedule overruns with
corresponding increases in the costs of implementing the core financial system. The FDIC will
also incur the costs of continued operation of the existing Walker system—estimated in the NFE
cost-benefit analysis at about $250,000 per month more than the cost of an operating NFE
system. In addition, the benefits of an integrated financial system, such as data sharing and fewer
systems will be deferred. Further, the Corporation will have to adjust maintenance and
development schedules for interfacing legacy systems to compensate for the NFE project delays.




12
   Working on activities concurrently rather than sequentially--for example, working on detail design issues and
   requirements definition at the same time.
13
   The NFE project team identified 221 FDIC systems and was categorizing their relationship with the NFE project
   into 6 categories: to be absorbed (35), retired systems (19), impacted by NFE (34), NFE impact to be
   determined (0), no NFE impact (101), and systems that retrieve information from other systems or databases to
   prepare reports (32). The preliminary categories of concern to Accenture were the “to be absorbed” and “NFE
   impact to be determined” categories. The “NFE impact to be determined” category was reduced from 20 on
   June 30, 2003 to none by August 25, 2003.




                                                     11
The NFE project and project delays have corporate-wide impacts. Because the RTM, General
Design Document, and other project deliverables have been delayed, the Principals group should
monitor and encourage full and consistent imple mentation of the NFE management control
framework. Further, the Principals group and NFE Steering Committee need to direct and work
with the project team to ensure that the project scope is promptly finalized and that impacts to the
schedule are adequately managed.

Recommendations

We recommend that the CFO, in conjunction with the Director, DOF:

(1)      Conduct a senior management review of the NFE project to establish metrics for
         measuring progress and project re-evaluation criteria if the measures are not achieved.

(2)      Direct the NFE Steering Committee to
         a. require that the RTM and General Design Document are expeditiously approved to
            avoid project delays;
         b. develop a project scope management plan that clearly defines the overall project
            scope and the project scope change processes in addition to the existing NFE Scope
            Management Approach document, which describes the process for developing
            baseline requirements;
         c. develop a time management plan that limits the time for decisions at each project
            level and has adequate performance measures to evaluate variances from the project
            schedule—including the impact of delays on the deployment date; and
         d. develop a schedule control process that defines the procedures for identifying,
            requesting, authorizing, and managing changes to the project schedule.


CORPORATION COMMENTS AND OIG EVALUATION

On September 25, 2003, the CFO and the Director, DOF, provided a written response to the draft
report. Their response is presented in its entirety in Appendix III of this report. The CFO and
Director, DOF, concurred with both recommendations. DOF plans to complete recommended
corrective actions by December 1, 2003. The following summarizes management’s response to
the recommendations.

      1. Conduct a senior management review of the NFE pro ject to establish metrics for
         measuring progress and project re -evaluation criteria if measures are not achieved.

The CFO and Director, DOF, concurred with this recommendation. They are working with
Accenture to develop a revised project schedule as a result of current delays. The new project
plan will provide a critical path that can be monitored by project leadership. Management is also
working to improve reporting and monitoring at all levels to support timely and informed
decision-making. From these efforts, the CFO and Director, DOF, will develop improved project
measurement metrics and re-evaluation criteria. The estimated completion date for development
and approval is November 14, 2003.




                                               12
Management's planned actions are responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.


   2a. Require that the RTM and General Design Document are expeditiously approved to
       avoid project delays.

The CFO and Director, DOF, concurred, indicating that the RTM and the General Design
Document are not one-time deliverables. The CFO and Director, DOF, have been working with
Accenture to finalize research and resolve remaining issues associated with requirements and
open general design items for everything except the Enterprise Performance Management suite,
which is on a later date track. All issues have been assigned completion dates and are being
actively monitored. The estimated completion date of the RTM and General Design Document
deliverables is November 14, 2003.

Management's planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.

   2b. Develop a project scope management plan that clearly defines the overall project
       scope and the project scope change processes in addition to the existing NFE Scope
       Management Approach document, which describes the process for developing
       baseline requirements.

The CFO and Director, DOF, concurred and will develop a broader scope management plan that
unifies the existing NFE Scope Management Approach document and the existing Interface
Approach document. Tying these together under an integrated plan will ensure a broader scope
management focus and allow for better monitoring of all efforts that influence the NFE project
success. The estimated completion date for development and approval is December 1, 2003.

Management's planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.

   2c. Develop a time management plan that limits the time for decisions at each project
       level and has adequate performance measures to evaluate variances from the
       project schedule, including the impact of delays on the deployment date.

The CFO and Director, DOF, concurred and will work with Accenture to review existing time
management documents and execution processes to identify and address where improvements
are needed. The estimated completion date for review, revision, and approval is October 31,
2003.

Management's planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.




                                            13
   2d. Develop a schedule control process that defines the procedures for identifying,
       requesting, authorizing, and managing changes to the project schedule.

The CFO and Director, DOF, concurred with this aspect of the recommendation. They will work
with Accenture to review existing schedule control documents and execution processes to
identify and address where improvements are needed. The estimated completion date for review,
revision, and approval is October 31, 2003.

Management's planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.

A summary chart showing management's responses to the recommendatio ns is presented in
Appendix IV.

Corporation Comments on NFE Project

In responding to the draft report, the CFO and Director, DOF, provided additional insights on the
scope of the NFE project. They indicated that the evaluation of the 27 business modules/support
tools against 753 requirements, 465 issues identified, 221 legacy applications, and the effort
needed to finalize the new accounting code control key (known as chartfields in PeopleSoft ®) has
taken longer than originally contemplated when the project schedule was established in
September of 2002. Extensive discussion, research, and evaluation of options have been required
on many issues given the magnitude of the change or the complexity of the solution options. As
a result, the key project milestones and deliverables (i.e., the RTM and completion of general
design documents) associated with this critical initial project phase have been delayed. Although
these delays do have a negative impact in the short term relative to project timelines and
associated additional implementation costs, FDIC believes the extra effort to date to manage the
scope of the NFE will yield significant benefit in the later project phases and post-
implementation.

The NFE project leadership also recognized the need to improve scope and time management
efforts. A Program Management Office was created to provide a control structure that reflects
the broader scope of implementation work that is beyond the design of the existing project
management structure. A legacy system change plan was developed to better guide the decision-
making process. Also, NFE project leaders are working with Accenture to improve status
reporting and deliverables monitoring so that issues and potential impacts are elevated in a more
timely manner for higher-level decision- making when required.

We agree that the NFE project scope is significant and has corporate-wide impact. The challenge
for NFE project leadership is to ensure that the project scope and time management plans are
consistently followed after they are developed to minimize risks of cost overruns and schedule
slippages.




                                             14
                                                                                                       APPENDIX I


                             OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether the FDIC had implemented adequate
controls for ensuring that the scope of the NFE project was effectively managed and that any cost
or schedule adjustments resulting from project scope changes were properly evaluated and
controlled. Specifically, we were to determine whether changes to the functional and technical
requirements in the statement of work were adequately supported by the 90-day test,14 JAD, and
CRP results.

We were unable to determine whether changes to the functional and technical requirements were
adequately supported because of delays in completing the requirement definitions. The NFE
project team was responsible for developing a requireme nts list at the end of the NFE general
design phase in order to identify the scope of the NFE implementation. However, this final
requirements list, originally scheduled for completion on April 15, 2003, had not been completed
as of August 31, 2003. As a result, we could not conclude whether changes to the proposed
requirements were adequately supported. We intend to conduct an audit of the support for
changes to the proposed requirements after the requirements list is completed.

Scope

To accomplish our audit objective :

       •    We evaluated the effectiveness of the implementation of specific management controls
            related to the NFE project. These controls included oversight controls such as the NFE
            Steering Committee and NFE Principals group and scope management and time
            management controls such as the Scope Management Approach and the Project Plan.
       •    We reviewed the NFE implementation from contract initiation on October 1, 2002
            through June 30, 2003. Because the project is ongoing, we updated information through
            August 31, 2003 for the final report.
       •    We conducted our audit work at the headquarters offices of DOF, DIRM, DOA, and
            OICM in Washington, D.C., during the period April 2003 through July 2003.

Methodology

We performed the following activities for our audit:

       •    We interviewed headquarters DOF, DIRM, DOA, and OICM officials who were
            responsible for managing and implementing the NFE project.
       •    We interviewed representatives of Accenture, the consulting firm hired by the FDIC to
            provide implementation services on the NFE, to become familiar with Accenture’s
            control processes for managing and implementing the project.

14
     In February 2003, the NFE project team completed a 90-day acceptance test of the PeopleSoft® Financials
     software. The purpose of this test was to verify that the software met FDIC’s business, security, and integration
     needs.




                                                          15
                                                                                                   APPENDIX I


       •   We attended NFE Steering Committee meetings and selected project briefings to observe
           certain aspects of the NFE control framework.
       •   We reviewed key documents related to the NFE scope management, including the
           weekly and monthly contractor status reports, NFE Steering Committee meeting minutes,
           weekly status meeting minutes, work breakdown structure, and relevant Corporate
           correspondence.
       •   We determined whether the FDIC had established performance measures to control the
           NFE project scope, such as status reporting and schedule variance analysis. We
           evaluated the adequacy and effectiveness of the NFE-specific performance measures
           coverage of the NFE scope management.
       •   We corroborated automated information used to support our audit findings, conclusions,
           and recommendations with other sources to ensure they were sufficiently reliable. For
           example, we discussed information contained in project status reports and plans with key
           project personnel.
       •   We did not develop specific audit procedures to detect abuse and illegal acts because we
           did not consider abuse and illegal acts to be material to the audit objective. However,
           throughout our evaluation, we were sensitive to the potential of illegal acts, including
           fraud, waste, abuse, and mismanagement.
       •   We did not assess the FDIC's compliance with applicable laws and regulations because
           we did not identify specific laws or regulations pertaining to the implementation of
           project controls.
       •   We conducted our audit in accordance with generally accepted government auditing
           standards.

Project Management Criteria

Although the FDIC is not required to comply with the PMBOK® Guide, we used it as the
primary criteria for determining whether the FDIC had implemented adequate scope
management controls because the guide contains generally accepted industry practices related to
successful project management. The PMBOK® Guide documents proven practices, tools, and
techniques that have become generally accepted 15 in the field of project management, including
information systems development and implementation. The PMBOK® Guide is an approved
standard of both the American National Standards Institute and the Institute of Electrical and
Electronics Engineers. The PMBOK® Guide identifies nine distinct knowledge areas associated
with successful project management. The nine areas are as follows:

       •   Integration Management: The processes that ensure various elements of a project are
           properly coordinated. Integration management consists of project plan development and
           execution and integrated change control.
       •   Scope Management: The processes that ensure a project includes all of the work
           required, and only the work required, to complete the project successfully. Scope
           management consists of initiation and scope planning, definition, verification, and change
           control.


15
     The PMBOK® Guide defines the term "generally accepted" as being applicable to most projects, most of the time,
     and having widespread consensus regarding value and usefulness.




                                                       16
                                                                                 APPENDIX I


•   Time Management : The processes that ensure timely completion of a project. Time
    management consists of activity definition, sequencing, and duration estimating as well
    as schedule development and schedule control.
•   Cost Management: The processes that ensure a project is completed within the approved
    budget. Cost management consists of resource planning and cost estimating, cost
    budgeting, and cost control.
•   Quality Management: The processes that ensure a project will satisfy the needs for
    which it was undertaken. Quality management consists of quality planning, assurance,
    and control.
•   Human Resource Management: The processes that make the most effective use of the
    people involved with a project. Human resource management consists of organizational
    planning, staff acquisition, and team development.
•   Communications Management : The processes that ensure timely and appropriate
    generation, collection, dissemination, storage, and ultimate disposition of project
    information. Communications management consists of communications planning,
    information distribution, performance reporting, and administrative closure.
•   Risk Management: The processes concerned with identifying, analyzing, and
    responding to project risk. Risk management consists of risk management planning, risk
    identification, qualitative and quantitative risk analysis, risk response planning, and risk
    monitoring and control.
•   Procurement Management: The processes related to acquiring goods and services from
    outside the organization. Procurement management consists of procurement and
    solicitation planning, solicitation, source selection, contract administration, and contract
    closeout.




                                          17
                                                                                                 APPENDIX II


                  ANALYSIS OF KEY CONTRACT DELIVERABLE DATES
                                                                                OCTOBER            ACCEPTED
              a                             b                                       c                  d
 DELAYED            KEY DELIVERABLES                                            2002               DATE
                    COTS Vendor Installation & Support (Information Builders
         *          & PeopleSoft®)                                                 10/01/02          12/19/02
                    Master Project Schedule/Work Plan/Milestone Chart              10/08/02          10/21/02
                    Quality Management Plan                                        10/15/02          10/23/02
         *          CRP Guidelines/Schedule/Materials                              10/15/02          11/08/02
         *          Initial Acceptance (90 Day) Master Test Plan & Test Scripts 10/15/02             12/13/02
         *          Journey Assessment Profile                                     10/31/02          12/02/02
         *          Scope Management Approach                                      10/31/02          02/25/03
                    Configuration Management Approach/Initial Package
         *          Configuration                                                  11/01/02          03/24/03e
         *          Communication Plan (DRAFT)                                     11/15/02          12/ 13/02
         *          CRP Issue Log                                                  11/15/02          03/17/03
         *          Communication Plan (FINAL)                                     12/15/02          01/29/03
         *          Initial Acceptance (90 Day) Test Results & Report              12/15/02          02/28/03
         *          Current State Assessment                                       12/15/02          04/11/03
         *          FDIC System Rules Loaded (DRAFT)                               12/31/02          03/ 06/03
                    Custom Application Requirements/User requirements
         *          (DRAFT)                                                        01/15/03          03/20/03
         *          Risk Management Plan                                           01/15/03          04/23/03
         *          NFE Initial Process Changes and Software Gaps                  02/15/03          05/15/03
         *          FDIC System Rules Loaded (FINAL)                               02/28/03          Not delivered
         *          General Design Document (DRAFT)                                03/20/03          06/11/03
         *          NFE Final Process Changes & Software Gaps/Mods                 03/30/03          06/04/03
         *          Custom Application and FDIC User Requirements (FINAL) 03/31/03                   06/04/03
                    Training Needs Analysis                                        04/15/03          04/25/03
         *          General Design Document (FINAL)                                04/15/03          06/03/03f
         *          Requirements Traceability Matrix                               04/15/03          Not delivered
         *          Technical Architecture Requirements                            05/15/03          06/18/03
                    Detailed Designs (DRAFT)                                       06/01/03          06/03/03f
                    Production Architecture Design (DRAFT)                         06/15/03          06/26/03
         *          System Parameters Loaded (DRAFT)                               06/15/03          07/28/03
                    Training Plan                                                  06/15/03          07/02/03
         *          Detailed Designs (FINAL)                                       07/15/03          Not delivered
         *          System Test Plan                                               08/15/03          Not delivered
                    Production Architecture Design (FINAL)                         08/23/03          08/29/03
Source: OIG analysis of NFE contract deliverables .
a
  Asterisk (*) indicates that the deliverable was delayed more than 2 weeks from the original October 2002 scheduled
  due date.
b
  Deliverables related to design and implementation and due by August 31, 2003. An additional 157 deliverables
  were periodic status reports and maintenance deliverables or were due after August 31, 2003.
c
  Attachment 7 to the NFE contract initiated October 1, 2002.
d
  The date the FDIC contract oversight manager formally accepted the deliverable as satisfactorily completed.
e
  The Initial Package Configuration was accepted on March 24, 2003. The Configuration Management Approach was
  accepted on September 8, 2003.
f
  These documents are being delivered, reviewed, and approved in batches. The entire deliverable will not be
  accepted until all documents have been received and approved.




                                                      18
                       APPENDIX III



CORPORATION COMMENTS




        19
     APPENDIX III




20
     APPENDIX III




21
     APPENDIX III




22
                                                                                                                                                        APPENDIX IV



                                                  MANAGEMENT RESPONSES TO RECOMMENDATIONS

     This table presents the management responses that have been made on recommendations in our report and the status of recommendations as
     of the date of report issuance. The information in this table is based on management’s written response to our report (and subsequent
     communication with management representatives.)

                                                                                                                                                                  Open
      Rec.                                                                         Expected            Monetary       Resolved:a       Dispositioned:b             or
     Number Corrective Action: Taken or Planned/Status                          Completion Date        Benefits       Yes or No          Yes or No               Closedc
        1   Develop improved project measurement metrics                        November 14, 2003       N/A              Yes                No                    Open
            and re-evaluation criteria.
       2a   The RTM and General Design Document                                 November 14, 2003                         Yes                 No                  Open
            deliverables will be completed in accordance with
            a revised project plan.
       2b   Complete a scope management plan.                                   December 1, 2003                          Yes                 No                  Open
       2c   Complete a time management plan.                                    October 31, 2003                          Yes                 No                  Open
       2d   Complete a schedule control process.                                October 31, 2003                          Yes                 No                  Open
23




     a
         Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                    (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                    (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                         management provides an amount.
     b
         Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
          implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
          recommendation.
     c
         Once the OIG dispositions the recommendation, it can then be closed.
